               INDEPENDENT AUDITOR’S REPORT, CONTINUED




                        INDEPENDENT AUDITOR’S REPORT



Inspector General
United States Nuclear Regulatory Commission

Chairman
United States Nuclear Regulatory Commission


We have audited the accompanying balance sheets of the United States Nuclear
Regulatory Commission (NRC), as of September 30, 2010 and 2009, and the related
statements of net cost, changes in net position, and budgetary resources (Principal
Statements) for the years then ended. We also examined the NRC’s internal control over
financial reporting as of September 30, 2010 and 2009.

Summary

We concluded that the NRC’s fiscal year (FY) 2010 Principal Statements are presented
fairly, in all material respects, in conformity with accounting principles generally accepted
in the United States of America. We also concluded that the NRC maintained, in all
material respects, effective internal control over financial reporting. We noted no
reportable instances of noncompliance with laws and regulations and no substantial
noncompliance with federal financial management systems requirements, applicable
Federal accounting standards, and the United States Government Standard General
Ledger (USSGL) at the transaction level.

The following sections discuss in more detail: (1) these conclusions and our conclusions
relating to other information presented in the Performance and Accountability Report, (2)
management’s responsibilities, and (3) our objectives, scope and methodology.

Opinion on the Principal Statements

In our opinion, the Principal Statements referred to above present fairly, in all material
respects, the financial position of the NRC as of September 30, 2010 and 2009, and its
net cost, changes in net position, and budgetary resources for the years then ended, in
conformity with accounting principles generally accepted in the United States of
America.

Opinion on Internal Control

In our opinion, the NRC maintained, in all material respects, effective control over
financial reporting as of September 30, 2010, that provided reasonable assurance that
misstatements, losses or noncompliance material in relation to the financial statements
would be prevented, or detected and corrected, on a timely basis. Our opinion is based
on criteria established under 31 U.S.C. 3512 (c), (d), the Federal Managers’ Financial
Integrity Act (FMFIA).

Compliance with Laws and Regulations

The results of our tests of compliance with laws and regulations disclosed no instances
of noncompliance that are required to be reported under Government Auditing
Standards and OMB Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements, as amended. Providing an opinion on compliance with laws and regulations
was not an objective of our audit and, accordingly, we do not express such an opinion.

Under the Federal Financial Management Improvement Act (FFMIA), we are required to
report whether the NRC’s financial management systems substantially comply with the
federal financial management systems requirements, applicable Federal accounting
standards, and the United States Government Standard General Ledger (USSGL) at the
transaction level. To meet this requirement, we performed tests of compliance with the
provisions of FFMIA section 803(a). The results of our tests disclosed no substantial
noncompliance with federal financial management systems requirements, applicable
Federal accounting standards, and the USSGL at the transaction level.

Other Information

The information in Management’s Discussion and Analysis and other Required
Supplementary Information (RSI) in NRC’s Performance and Accountability Report is not
a required part of the Principal Statements, but is supplementary information required by
accounting principles generally accepted in the United States of America. We have
applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of the
supplementary information. However, we did not audit the information and express no
opinion on it.

The Program Performance and Other Accompanying Information sections listed in the
Table of Contents are presented for additional analysis and are not a required part of the
Principal Statements. Such information has not been subjected to the auditing
procedures applied in the audit of the financial statements and, accordingly, we express
no opinion on them.

Management Responsibilities

Management is responsible for (1) preparing the Principal Statements in conformity with
accounting principles generally accepted in the United States of America, (2)
establishing and maintaining effective internal control over financial reporting, and
evaluating its effectiveness, (3) ensuring that the NRC’s financial management systems
substantially comply with FFMIA, and (4) complying with applicable laws and
regulations. NRC management evaluated the effectiveness of NRC’s internal control
over financial reporting as of September 30, 2010, based on criteria established under
FMFIA. NRC management’s assurances are included in the Systems, Controls, and
Legal Compliance section of the Management’s Discussion and Analysis.
An entity’s internal control over financial reporting is a process effected by those charged
with governance, management, and other personnel, the objectives of which are to
provide reasonable assurance that (1) transactions are properly recorded, processed,
and summarized to permit the preparation of financial statements in accordance with
U.S. generally accepted accounting principles, and assets are safeguarded against loss
from unauthorized acquisition, use, or disposition; and (2) transactions are executed in
accordance with the laws governing the use of budget authority and other laws and
regulations that could have a direct and material effect on the financial statements.

Objectives, Scope and Methodology

We are responsible for planning and performing our audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting
principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation.

We are responsible for planning and performing our examination to obtain reasonable
assurance about whether management maintained, in all material respects, effective
internal control over financial reporting as of September 30, 2010. Our examination
included obtaining an understanding of NRC and its operations, including internal control
over financial reporting; considering NRC’s process for evaluating and reporting on
internal control over financial reporting which the NRC is required to perform by FMFIA;
assessing the risk that a material misstatement exists in the financial statements and the
risk that a material weakness exists in internal control over financial reporting; evaluating
the design and operating effectiveness of internal control and assessing risk; testing
relevant internal controls over financial reporting; and performing such other procedures
as we considered necessary in the circumstances. We did not test all internal controls
relevant to operating objectives as broadly defined by FMFIA.

Because of inherent limitations in any internal control, misstatements due to error or
fraud may occur and not be detected. Also, projections of any evaluation of the internal
control to future periods are subject to the risk that the internal control may become
inadequate because of changes in conditions, or that the degree of compliance with the
policies or procedures may deteriorate.

We are also responsible for testing compliance with selected provisions of laws and
regulations that have a direct and material effect on the financial statements. We did not
test compliance with all laws and regulations applicable to the NRC. We limited our
tests of compliance to those laws and regulations required by OMB audit guidance that
we deemed applicable to the financial statements for the fiscal years ended September
30, 2010 and 2009. We caution that noncompliance may occur and not be detected by
these tests and that such testing may not be sufficient for other purposes.

We conducted our audit and examinations in accordance with auditing standards
generally accepted in the United States of America; Government Auditing Standards,
issued by the Comptroller General of the United States; attestation standards
established by the American Institute of Certified Public Accountants; and OMB Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. We
believe that our audit and examinations provide a reasonable basis for our opinions.
We noted less significant matters involving the NRC’s internal control and its operation,
which we have reported to the management of the NRC separately.

Distribution

This report is intended solely for the information and use of the NRC OIG, the
management of NRC, OMB, the Government Accountability Office and the Congress of
the United States, and is not intended to be and should not be used by anyone other
than these specified parties.




Arlington, Virginia
November 7, 2010
